U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Orlando Bell v. United States of America,
S.Ct. No. 20-5689

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
10, 2020, and placed on the docket on September 14, 2020. The government’s response is due
on October 14, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 13, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5689
BELL, ORLANDO
USA

MARY ELIZABETH DAVIS
DAVIS AND DAVIS
1350 CONNECTICUT AVE. NW
WASHINGTON, DC 20036

